UNITED STATES DEPARTMENT OF AGRICULTURE

       OFFICE OF INSPECTOR GENERAL




     STATEMENT OF PHYLLIS K. FONG

           INSPECTOR GENERAL



                   Before the

     HOUSE APPROPRIATIONS SUBCOMMITTEE
                      ON
AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG
                ADMINISTRATION,
                     AND
               RELATED AGENCIES


                 March 3, 2004
                                                                   For release only by the House
                                                                   Committee on Appropriations




                            STATEMENT
                                  Of
                          PHYLLIS K. FONG
                        INSPECTOR GENERAL
                  OFFICE OF INSPECTOR GENERAL
                U.S. DEPARTMENT OF AGRICULTURE
                              before the
      HOUSE APPROPRIATIONS SUBCOMMITTEE ON AGRICULTURE,
       RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION,
                      AND RELATED AGENCIES

                                      March 3, 2004




                         INTRODUCTION AND OVERVIEW


Good morning, Mr. Chairman and members of the Committee. I appreciate the

opportunity to testify before you today to discuss the activities of the Office of Inspector

General (OIG) and to provide you information on our audits and investigations of the

programs and operations of the U.S. Department of Agriculture (USDA).



Before I begin, I would like to introduce the members of my staff who are here with me

today: Joyce Fleischman, Deputy Inspector General; Robert Young, Assistant Inspector

General for Audit; Jon Novak, Deputy Assistant Inspector General for Investigations; and

Delmas Thornsbury, Director of our Resources Management Division.
I want to thank the Committee for its support during the past year since my appointment

as Inspector General at Agriculture. We have tried to work closely with you, and I hope

we have been able to address some of your concerns. You, the Congress, are key OIG

clients, and I look forward to continuing to work with each of you to address your areas

of interest.



It has been a challenging year at USDA. In my testimony today, I will address some of

the most significant management challenges facing USDA’s programs and operations.

Three of the most critical are the safety of our Nation’s food supply, Homeland Security,

and security of the Department’s information technology (IT) systems. My testimony

will also address farm programs, rural development, research integrity and financial

management, as well as the President’s fiscal year (FY) 2005 budget request for OIG.




                                    FOOD SAFETY



Threats to public health and safety are the most important matters that OIG reviews and

investigates. Ensuring a safe, wholesome, and properly labeled meat and poultry supply,

whether domestically produced or imported, is one of USDA’s primary missions and

presents a management challenge OIG has identified and reported. Recalls of

contaminated meat and poultry and the recent discovery of Bovine Spongiform

Encephalopathy (BSE) in a cow in Washington state highlight the vulnerabilities and

challenges USDA and the meat and poultry industry face.



                                            2
Bovine Spongiform Encephalopathy



OIG is currently investigating allegations surrounding the actual state of the diseased cow

before its slaughter. We initiated our inquiry based on allegations that were reported in

the media in early February concerning possible alteration of official records. This is an

active and open case. In addition, we have initiated an audit to review various aspects of

USDA’s response to the discovery of BSE, including the BSE response and surveillance

plans. We are also monitoring the implementation of changes to slaughter and inspection

operations. Our goal is to work with USDA to identify areas where USDA can

strengthen its controls and processes to provide continuing assurance that the U.S. meat

supply is safe, wholesome, and properly labeled.



Recalls of Meat



Last year I discussed work OIG had underway in the Food Safety and Inspection

Service’s (FSIS) recall operations. The reviews focused on the recall of 19 million

pounds of ground beef produced at the ConAgra plant in Greeley, Colorado, because of

adulteration with Escherchia coli (E. coli) O157:H7, and the recall of 27 million pounds

of ready-to-eat poultry products at a Pennsylvania plant because of adulteration with a

Listeria strain.



Our audit of the ConAgra plant found that neither ConAgra nor FSIS effectively fulfilled

their responsibilities under the Hazard Analysis and Critical Control Point (HACCP)

system. ConAgra did not design or assess its food safety system to ensure it operated in

                                             3
compliance with Standard Sanitary Operating Procedures and HACCP requirements.

Data were available to both ConAgra and FSIS in the period prior to the recall that

indicated E. coli O157:H7 was becoming a continuous problem at the Colorado plant.

FSIS inspectors did not recognize or respond to these indicators. Instead, they followed

FSIS policies that effectively limited the documents the inspectors could review and the

enforcement actions they were allowed to take. FSIS policies impeded the inspectors’

ability to trace a contaminant from the grinder’s establishment back to the supplier, in

this case ConAgra. FSIS inspectors needed concurrence from FSIS technical officials

before traceback samples could be tested. This required approval action contributed to a

7-day delay in initiating the recall. Under its normal operation, ConAgra could have

produced up to 3.75 million pounds of recalled beef during this 7-day delay.



We made 31 recommendations to address these weaknesses. During the recall and audit,

FSIS took a number of actions to strengthen its inspection procedures, including

informing establishments producing raw beef products of the need to reassess their

HACCP plans based on the assumption that E. coli O157:H7 is a hazard reasonably likely

to occur at all stages of the process. FSIS has also begun a comprehensive food safety

assessment to evaluate the adequacy of HACCP plans and food safety systems. We have

not yet, however, received detailed replies for 21 of the recommendations specifying the

corrective actions taken or planned, or implementation timeframes.



We continue to review the recall of ready-to-eat poultry products produced at a

Pennsylvania plant and adulterated with a deadly strain of the bacteria Listeria

monocytogenes. We have expanded our review to include other plants in the

                                             4
Northeastern United States that had recalls due to contamination with a strain of Listeria

monocytogenes which was indistinguishable from the strain associated with the outbreak

from the Pennsylvania plant. In total, between January 1, 2002, and January 3, 2003,

15 plants recalled about 32.2 million pounds of ready-to-eat poultry products. Our work

is focusing on two of these plants that accounted for about 98 percent of the recalled

product. We also have an ongoing investigation involving the Pennsylvania plant which

we are coordinating with the U.S. Attorney’s office.



Food Safety Investigations



OIG investigations involve many phases of food production and distribution to help

ensure the safety and wholesomeness of the Nation’s food supply. We investigate

smuggling and other activities that can result in the introduction of harmful foreign pests

that could devastate production agriculture in this country. We also look at the

distribution of contaminated meat and poultry products into the food supply and

intentional tampering with food products in grocery stores and restaurants. In FY 2003,

OIG investigative results in food safety yielded 18 indictments, 15 convictions, and

$4.5 million in recoveries.



For instance, in last year’s testimony, I mentioned the arrest of a former meatcutter in a

Michigan food store. The investigation was conducted jointly by OIG, the Federal

Bureau of Investigation (FBI), and local health authorities after approximately 130

consumers returned product or complained of sickness after eating ground beef purchased

from the store. Ninety-two people who ate the hamburger reported acute symptoms

                                             5
including burning in the mouth and lips, lightheadedness, dizziness, nausea, and

vomiting. Preliminary laboratory results indicated the contaminant was nicotine, and

meat tampering was suspected. Further investigation disclosed that an employee of the

grocery store contaminated approximately 250 pounds of ground beef with Black

Leaf 40, a pesticide containing nicotine. He contaminated the meat because of ongoing

disagreements with coworkers in the meat department of the store. He said he had hoped

his action would result in his coworkers being disciplined or fired. He pled guilty to

poisoning meat using an insecticide and poisoning meat to seriously injure a business,

and was sentenced in Federal court to 9 years in prison, followed by 3 years of supervised

release, and ordered to pay $12,161 in restitution.



Another investigation, conducted jointly with FSIS Compliance, disclosed that a Los

Angeles corporation, which was engaged in the business of purchasing, storing, and

selling meat and poultry products to retail customers, had a history of selling adulterated

meat and poultry products that had been gnawed and contaminated by rodents. When

evidence of rodent infestation was again uncovered, FSIS detained approximately

8,600 pounds of various meat products, of which approximately 5,000 pounds were

subsequently destroyed. The company, its president, and its warehouse manager were

placed on probation and fined more than $105,000 after they pled guilty to selling and

offering to sell adulterated meat food products for human consumption.



We began a joint investigation with the California Department of Food and Agriculture

after being notified that an importer of Asian fruit imported approximately 44,000 pounds

of prohibited fresh longans into the Port of Long Beach. The longans were infested with

                                             6
eight different species of insect pests, including the Oriental fruit fly. The importer made

a false statement on the manifest that the longans had been frozen and, therefore, could

legally be imported into the United States from Thailand. The importer bought the fresh

longans for $9.13 per container and sold them for as much as $57.50 per container. At

the time, frozen longans were selling for an average price of $17.60 per container in the

Los Angeles market. The importer pled guilty to a Federal felony smuggling charge and

was sentenced to serve 3 years of probation and fined $23,251.



Exotic Newcastle Disease



In support of the Department’s goal of protecting the health of poultry flocks used for

food production, we have conducted investigations of bird fighting to address the illegal

movement of infected birds. These investigations are particularly significant because

they found that infected fighting cocks were moved to various counties in southern

California and other Southwestern States, contributing greatly to the spread of Exotic

Newcastle Disease (END) in late 2002. END is a highly contagious viral disease that is

deadly to birds and poultry. In one joint law enforcement operation in northern

California, officers seized more than 4,700 fighting cocks during searches. State criminal

charges were filed against 24 individuals for “owning, keeping, or training animals for

fighting.” Seven of the individuals have been sentenced, 2 are fugitives, and the

remaining 15 are awaiting trial. During the searches, our agents also seized several

firearms and a large quantity of cockfighting paraphernalia. Most of the fighting birds

have been destroyed. This law enforcement operation was conducted jointly with

sheriff’s deputies and animal control officers from several California counties.

                                             7
In another case, in January and April 2003, OIG special agents and law enforcement

officers of the New York City Police Department jointly raided cockfighting operations

in progress in the Bronx, New York. In these raids, 221 people were either arrested or

summoned and ordered to pay fines for a State misdemeanor offense, and 182 fighting

cocks were seized. These animals were tested for END with negative results and

euthanized.



Avian Influenza



During an investigation of a biological laboratory in Winslow, Maine, OIG learned that

the laboratory had agreed to produce an avian influenza vaccine for a customer in Saudi

Arabia. In order for the laboratory to do so, an isolate containing the virus was smuggled

into the United States. The production manager of the firm knew smuggling the virus

into the U.S. was unlawful. After a vice president of the laboratory learned that a letter

had been written to the Government advising that the laboratory was producing the

vaccine, the production manager – along with the four vice presidents of the laboratory

and several employees – loaded the vaccine into a truck and drove it to the house of one

of the vice presidents. During an interview with 1 vice president, we learned that he had

possession of over 40 vials and 1 plastic 250-milliliter container of liquid material, and

one vial of powder, all of which OIG seized. Testing conducted by APHIS’ National

Veterinary Services Laboratory revealed that the powder was a Newcastle disease virus.

The liquid material tested positive for avian influenza. Based on testimony of several

subjects and witnesses, the material was probably active when first imported into the



                                             8
United States. However, since it was not properly stored, the material deteriorated and

was no longer active or a threat.



In November 2003, the production manager pled guilty to being an accessory after the

fact for smuggling an avian virus into the country. At the same time, the customer

service manager pled guilty to aiding and abetting in violation of the Virus-Serum Toxin

Act. Sentencing is pending on both individuals. Additionally, in December 2003, three

of the vice presidents were indicted on charges of conspiracy, accessory after the fact of

smuggling, and mail fraud. They have all pled innocent and are awaiting trial.




                                HOMELAND SECURITY



OIG continues to place a high priority on assisting the Department in strengthening its

defenses against activities that threaten the Nation’s food supply, production agriculture,

and Government facilities. To address the vulnerabilities identified by OIG, the

Department has had to refocus some of its goals and approaches: shifting from safety

goals to both safety and security goals in each of its mission areas, fostering effective

coordination and communication across mission areas, and increasing Departmental

oversight and agency accountability. We are happy to report that the Department has

taken significant steps to incorporate these approaches in restructuring some of its

mission operations, not only across the Department but also across Government. We

emphasized this theme in our reporting of major management challenges facing USDA.



                                              9
The Homeland Security Act of 2002 mandated the transfer from USDA to the

Department of Homeland Security (DHS) agricultural import and entry inspection

activities and the Plum Island Animal Disease Center. To ensure effective oversight of

those activities transferred to DHS, we met with officials from DHS’ OIG to facilitate

coordination and exchange of appropriate information, particularly with respect to

followup on our prior audit findings and recommendations concerning effectiveness of

agricultural import and entry inspections. This year, we plan to review and monitor the

memoranda of understanding between USDA and DHS. We also plan to evaluate the

progress made by USDA and its affected agencies to coordinate with the Food and Drug

Administration (FDA), the Environmental Protection Agency (EPA), and other

governmental entities to timely and effectively implement the provisions of the Public

Health Security and Bioterrorism Preparedness and Response Act of 2002, particularly

those to ensure security and safety of the food supply.



Reviews of Security at Laboratories



Last year, we reported that OIG had begun a review of laboratories funded by USDA

agencies, as part of our effort to assist the Department in strengthening Homeland

Security. OIG reviewed non-Federal institutions that receive USDA funding to conduct

research into human, animal, and plant diseases. In our review, we evaluated the controls

these institutions exercise over biological agents and toxins, as well as chemicals and

radioactive materials. We visited 104 laboratories at 11 USDA-funded institutions and

found deficiencies in inventory controls over biological agents, physical security at the

laboratories, and personnel access to these laboratories. Since these institutions received

                                            10
funding from multiple Government sources, our recommendations addressed the need for

standards that are Governmentwide in nature. We, therefore, recommended that the

issues be elevated to DHS and to the Executive Office of the President’s Homeland

Security Council, and that Federal Governmentwide security standards be established. In

its response, the Department agreed that a consolidated set of security standards needed

to be implemented and has stated that it has begun discussion of these issues with the

President’s Homeland Security Council.



We conducted a followup review of oversight and controls of biological agents at USDA

laboratories to determine whether USDA laboratories and agencies had addressed

security, inventory, and access deficiencies reported in our prior report, and to examine

the implementation of the new policies and procedures regulating inventories and

biosecurity controls. We visited 16 laboratories included in our earlier review. In

general, we found that the agencies had made great strides in implementing biosecurity

policies and procedures, and laboratories had strengthened their controls governing

physical inventory, materials access, and materials accountability. We will be issuing our

report in the near future.



We have a number of reviews ongoing to identify potential vulnerabilities in USDA

facilities. We also plan to review the adequacy of USDA controls to prevent the release

of sensitive technology. For instance, the Agricultural Research Service (ARS) issues

agreements for sharing potentially sensitive technology with partners that could include

foreign entities. Our review will focus on whether ARS has complied with the export



                                            11
license requirements issued by the U.S. Department of Commerce for the transfer of

potentially sensitive technology to foreign entities.



Forest Service



The Forest Service (FS) has inventories of significant amounts of explosives and is also

responsible for military artillery and munitions issued to ski resort operators for

avalanche control. We determined that FS did not have an overall management program

that effectively secured these assets and that accountability and physical security of these

items needed to be improved. Some magazines contained expired and deteriorating

supplies of explosives and munitions. Permittees who maintained military artillery and

munitions needed to conduct background investigations for employees who had access to

these items. FS concurred with our recommendations to correct these problems.



In FY 2003 we followed up on our previous audit work to improve security over FS

aircraft and aircraft facilities and found that while FS had made progress in implementing

our recommendations, it needed to address additional issues. FS had not implemented

adequate controls to account for aircraft transferred to States under the Federal Excess

Personal Property (FEPP) program FS administers. We identified 52 of these aircraft that

had tanks capable of dispersing biological or chemical weapons. We also found that FS

had not required States with FEPP aircraft to conduct security assessments of their

facilities and to implement minimum security standards. In addition, we found that the

FS Washington office was not reviewing and approving security plans developed for air

tanker bases. FS agreed with our recommendations to address each of these issues.

                                             12
FS is responsible for management of Federal lands that include approximately

1,000 miles of international borders. Our audit determined that significant challenges

exist to secure these borders. The Border Patrol has overall responsibility for security of

these borders but has limited resources to cover national forest lands. The FS has

insufficient officers assigned to the seven national forests that are contiguous to these

international borders. In addition, FS law enforcement personnel lack authority over

illegal entry into the United States and may not arrest persons crossing the border unless

they commit a crime over which FS has jurisdiction. FS agreed with our

recommendation to formally notify DHS of the issues raised in our report and agreed to

actively participate with other agencies to develop a cohesive, multiagency strategy for

securing U.S. borders.



Animal and Plant Health Inspection Service



Last year I referenced our ongoing review of the Animal and Plant Health Inspection

Service’s (APHIS) permit systems for the importation and domestic transfer of specified

plant and animal pathogens and other restricted materials. The permits are issued to

colleges, universities, public and private laboratories, and other users by APHIS’ Plant

Protection and Quarantine (PPQ), and Veterinary Services divisions. At the time of our

review neither division (1) routinely performed inspections of all new applicants for

import permits, (2) performed followup inspections to ensure that regulated materials

imported under permit were properly disposed of when the permit expired, or (3) required

accountable documentation to accompany shipments of permitted materials. In addition,

APHIS allowed incoming passengers, including foreign nationals, to hand-carry permit

                                             13
packages. PPQ’s computerized system for tracking the status of active and pending

permits did not automatically flag permits that had expired or were about to expire.

APHIS generally agreed with our report’s conclusions and our recommendations to

address the control problems. We have reached resolution on 7 of the

11 recommendations we made.



The Agricultural Bioterrorism Protection Act of 2002 regulates certain biological agents

and toxins researched by USDA and other Federal agencies. APHIS issued regulations in

December 2002 to implement the law’s Title II provisions governing the possession, use,

and transfer of biological agents and toxins. We are beginning phase I of our review to:

(1) assess the accuracy and completeness of APHIS’ registration records, (2) determine

what steps APHIS has taken to ensure adequate coordination with the Centers for Disease

Control and Prevention, and (3) examine APHIS’ assessment of laboratory security plans

to determine whether the approvals of the plans were supported and consistent. During

phase II, we will perform field visits to selected locations where listed agents and toxins

are used or stored to determine whether controls are functioning and adequate to

safeguard the biological agents and toxins from accidental or clandestine release.



Commodity Credit Corporation



As part of our overall effort to assist the Department in strengthening Homeland Security,

we reviewed the strategy and controls applicable to food security, specifically over

USDA-owned or controlled commodity inventories. These commodity inventories are

acquired by the Commodity Credit Corporation (CCC) under its mandated goal to

                                             14
stabilize, support, and protect farm income and prices. CCC is authorized to procure,

transport, store, process, and dispose of various agricultural commodities and their

products. These inventories include not only unprocessed commodities, such as bulk

food grains, oilseeds, rice, and sugar, but also processed commodities such as cheese,

nonfat dry milk, and butter. CCC’s storage agreements sometimes include temporary

storage for processed food distributed through various assistance programs administered

by the Food and Nutrition Service (FNS) and the Agricultural Marketing Service. These

CCC programs and operations are managed and administered by the Farm Service

Agency (FSA).



Our review determined that FSA needs to: (1) conduct vulnerability and risk assessments

to determine appropriate levels of protection needed to secure USDA-owned agricultural

commodities; (2) address the prospect of intentional and widespread contamination

regarding handling, transportation, storage, and distribution of such commodities,

including developing clear safety and security policies and procedures to ensure that

these commodities are adequately protected and safeguarded; and (3) upgrade its

commodity inventory management information systems so that such commodities can be

promptly located and tracked during crises. We recommended that FSA in collaboration

with the Department develop food safety and security strategies and conduct risk

assessments over its agricultural commodity operations and related programs. After

those first steps have been accomplished, we recommended that FSA collaborate with

FDA and USDA agencies to implement appropriate security measures to manage and

protect USDA commodities. In its response, FSA generally concurred with our

recommendations and stated that it had begun coordination and communication with

                                            15
DHS to develop the appropriate corrective actions. FSA has agreed to conduct risk

assessments under the supervision of, and using methodologies recommended by, DHS.

FSA also agreed to start the process to upgrade its commodity inventory management

information systems, if funds are available.



Employee and Research Integrity Involving Homeland Security



A former senior agricultural economist for the USDA Economic Research Service pled

guilty to charges of conspiracy to commit visa fraud and has agreed, as part of the plea

agreement, to remit to the Government approximately $82,000 that he obtained as a result

of his role in the scheme. This economist, working with others, arranged for Chinese

nationals to fraudulently obtain visas to illegally enter and remain in the United States.

Although they were not agricultural specialists, the Chinese nationals received letters of

invitation on USDA letterhead to enter the United States as part of a Government

delegation of agricultural specialists. Each immigrant paid $10,000 for costs associated

with obtaining the visas. As a result of the scheme, 99 Chinese immigrants improperly

entered and remained in the United States from late 1999. The U.S. Embassy in Beijing,

China, denied approximately 150 other applicants’ visas when the scheme was

discovered. Two co-conspirators have also been criminally charged and have entered

guilty pleas. The other individual was sentenced to 1 year of probation and a $5,000 fine.

This was a joint investigation with the State Department.



In another investigation, we investigated a threatening letter mailed to a Natural

Resources Conservation Service (NRCS) District Conservationist in Deland, Florida,

                                               16
allegedly infected with anthrax. The county sent a hazardous response team to the office

when the anthrax threat was discovered. The letter contained a white powder, which was

tested and found not to be contaminated with anthrax. A Florida man confessed to OIG

agents that he wrote the threatening letter, put a commercial headache powder in the

envelope, and mailed it to NRCS because he was upset that NRCS denied his request for

financial assistance to dig a pond. The individual pled guilty, and in June 2003, a Federal

judge sentenced the man to 3 years of probation, 150 hours of community service, mental

health treatment, and ordered him to pay $824 in restitution.



Last year I reported on our investigation into an accidental shooting of an APHIS

maintenance employee in Utah that had expanded into an investigation of theft of

Government property, sexual assault, and murder on USDA property. The employee had

been sentenced for theft of Government funds and had also entered a guilty plea for the

murder of a 15-year-old girl. He subsequently withdrew his plea, and was convicted by a

jury trial in January 2004 for capital murder, felony kidnapping, and desecration of a

human body. He was sentenced to life in prison without possibility of parole.



I also mentioned last year, our investigation of a staged break-in at the Michigan State

University (MSU) laboratory by a former graduate student. This investigation had begun

as a Homeland Security investigation, but evolved into a research integrity case. The

graduate student was attempting to conceal that he had fabricated Actinobacillus

pleuropneumoniae (APP) research findings over the previous 5 years. APP causes

pneumonia in swine. The news media reported that samples of a highly virulent,

genetically altered strain of APP had been stolen during the apparent break-in.

                                            17
Investigation by OIG, the Federal Bureau of Investigation, and MSU police found that no

theft occurred. The graduate student admitted during an interview with agents, and again

during an FBI-administered polygraph examination, that he never mutated the trkH gene

in APP bacteria. Therefore, all the laboratory’s research on the mutation was rendered

fraudulent. He also stated that he did not remove any APP samples from the laboratory.

A Federal district judge recently sentenced the former graduate student to 10 months of

incarceration, followed by 3 years of supervised release, 120 hours of community service,

and ordered him to pay $69,937 in restitution, which represents salary paid to the

individual during the period he worked on the Cooperative State Research, Education and

Extension Service (CSREES)-funded research at MSU to develop a vaccine against APP.

CSREES continues to freeze funding for the current APP grant until an ethics/misconduct

investigation by MSU officials can be completed. Because approximately $750,000 of

CSREES’ grant monies had already been paid to MSU for the research, we recommended

CSREES recover these funds.




                                  FARM PROGRAMS



Assistance to Farmers



USDA faces major challenges in implementing the 2002 Farm Bill and 2003 disaster

assistance legislation, and in ensuring the integrity of the crop insurance programs. To

more effectively implement the farm and crop insurance programs, USDA agencies must

enhance their ability to work across organizational lines and to identify data discrepancies

                                            18
in the programs. The agencies, especially FSA and the Risk Management Agency

(RMA), must make it a priority to ensure that data is shared, data discrepancies are

resolved, and problems found in both internal and external reviews are coordinated and

analyzed for their impact on program payments in each affected agency.



Early on, we participated with FSA in discussions on implementation of a variety of farm

programs for FYs 2002 through 2007 authorized by the 2002 Farm Bill. We have since

reviewed the newly enacted Peanut Quota Buyout Program (PQBP) and Direct and

Countercyclical Programs (DCP), as well as FSA’s calculations and application of

countercyclical payment rates and adjustments to commodity loan rates. Under PQBP,

payments of nearly $1.3 billion were issued to eligible quota holders. Under DCP, over

$3.4 billion was disbursed to eligible producers for the 2002 crop year, and nearly

$5.6 billion for the 2003 crop year. Generally, we determined management controls were

adequate to prevent or detect errors and irregularities. However, because of the

magnitude of the payments involved, we have planned additional substantive audit testing

to determine whether bases and yields under DCP were properly established.



Currently, we are reviewing payments to producers under the Milk Income Loss Contract

Program, which was authorized under the 2002 Farm Bill. Over $1.8 billion in payments

have been disbursed to date under this Program. Additionally, we have initiated reviews

of programs authorized by the Agricultural Assistance Act of 2003. These include the

2001/2002 Crop Disaster Program, with nearly $2.5 billion in payments; the Livestock

Compensation Program, which so far has disbursed $1.1 billion in payments; and sugar

beet disaster assistance to producers, which totals $48 million to date.

                                             19
Our investigative program has also been heavily involved in farm program cases. For

instance, OIG investigated allegations that a farmer in North Carolina removed and sold

CCC collateral for his personal use. The producer admitted to removing and selling

373,064 bushels of soybeans held by CCC as collateral for two loans totaling $2 million

and converting the proceeds for his personal use in order to operate his farm. On

October 1, 2003, the producer signed a Civil Settlement Agreement and Consent Order

agreeing to repay FSA $2.7 million plus interest.



In another investigation, OIG joined with the FBI to investigate a cattle broker who

falsified Grain Inspection, Packers and Stockyards Administration documents in

furtherance of a scheme to defraud investors, business associates, and financial

institutions. Essentially, the scheme involved the broker’s misrepresentation to his

clients – private investors and financial institutions – of the financial status of his

business entity and of the numbers of cattle available at the time investments were made.

Investors relied upon untrue, misleading, deceptive, and inaccurate information when

making their investments. When the scheme unraveled, the broker was in control of only

5 percent of the cattle for which he was obligated to his investors. During the 2½-year

investigation, over 100 victims were identified and interviewed by OIG agents in

4 midwestern states with losses totaling $166 million. The broker and his bookkeeper

pled guilty to 5 counts each of mail fraud, wire fraud, false entries, and criminal

forfeiture. They are awaiting sentencing.




                                              20
Crop Insurance



The Federal crop insurance programs are billed as the American producers’ primary

“safety net.” Despite the growth of these programs over the years – in crop year 2003,

crop insurance covered 217 million acres with a total Government insurance liability of

over $40 billion – RMA has not been able to determine the level of improper or

erroneous payments.



The Agricultural Risk Protection Act of 2000 (ARPA) mandated that USDA develop and

implement additional methods of ensuring Federal crop insurance program integrity,

including a plan for FSA to assist RMA in monitoring the crop insurance programs.

RMA must continue to improve and strengthen its policyholders’ database by effectively

implementing all of the provisions under ARPA and improving its Data Acceptance

System (DAS), which is intended to perform validity checks on information submitted by

the insurance companies before it is incorporated into RMA’s Policyholder Database.



Our audits have shown that information contained in the database and used to drive

RMA’s accounting system may not be reliable and/or compliant with the Office of

Management and Budget (OMB) core and Federal financial system requirements.

Further, RMA has not yet fully implemented the ARPA-required reconciliation of FSA

data and RMA data. In an effort to determine the full financial impact of the weaknesses

noted in DAS, we plan to verify information recorded in RMA’s databases and audit

additional DAS edits, including controls over Zero Acreage Reporting. We also have

planned audit work to fully evaluate RMA’s implementation of other ARPA mandates,

                                           21
such as data mining, utilization of the FSA State and county committees in program

review, and contracting requirements.



In June 2003, we initiated a review to evaluate the circumstances leading to the financial

insolvency of the American Growers Insurance Company (AGIC), formerly a reinsured

company under RMA’s Federal crop insurance program. Our objectives include

evaluating whether RMA’s financial management controls over the reinsured companies

were sufficient to ensure their compliance with the financial requirements of the standard

reinsurance agreement (SRA). We also want to evaluate whether such management

controls are adequate to prevent and/or detect insolvency of other reinsured companies.

We are currently summarizing the results of our work and plan to issue a report by late

summer.



The issues identified during our review at AGIC have formed the basis for many of our

comments to RMA officials for their consideration in revising the SRA. Adoption of our

comments would, we believe, result in improved financial information being provided to

RMA management that could be used to prevent future insolvencies of reinsured

companies or, at least, minimize the impact of such insolvencies. We will continue to

monitor the current SRA renegotiation process and provide RMA feedback on this

process, as appropriate.



OIG investigations have resulted in significant prosecutions for crop insurance fraud. In

Minnesota, the manager of a grain elevator conspired with producers to defraud both

RMA and FSA. Our investigation found that, in October 1999, the manager instructed

                                            22
his employees to misgrade durum wheat by inflating the damage and lowering the test

weight for all loads delivered to the elevator. The elevator then resold the wheat at a

substantial profit. The producers submitted the fraudulent scale tickets to their insurance

companies and collected more than $1 million in crop insurance and $350,000 in disaster

payments from FSA to which they were not entitled. Four producers pled guilty in this

case, were placed on probation, and ordered to pay a combined total of $32,000 in

restitution. The manager was recently sentenced to serve 46 months in prison and

ordered to pay restitution of over $750,000.



An investigation in Wichita Falls, Texas, involved a crop insurance agent who lied about

his 1999 cotton, wheat, and grain sorghum crops. He said the crops were planted and

failed, but OIG’s investigation showed the crops were never planted. He defrauded RMA

and FSA out of about $740,000. The case resulted in a total of 25 counts of conspiracy,

false claims, and false statements. On February 26, 2004, a Federal jury returned a guilty

verdict against the crop insurance agent. An adjuster has also pled guilty and admitted

that he fraudulently approved the appraisals of the crops. Sentencing is pending for both

individuals.




                               RURAL DEVELOPMENT


Rural Business-Cooperative Service


The Business and Industry (B&I) guaranteed loan program is intended to create and

maintain employment and improve the economic climate in rural communities. We


                                               23
recently completed a comprehensive review of this program in which we summarized the

results of our audits in 16 States. We examined 38 guaranteed loans totaling

$125 million and questioned $58 million of these loans. The Rural Business-Cooperative

Service (RBS) had approved questionable loans, failed to identify lender negligence in

servicing loans, and honored guarantees when lenders failed to fulfill their

responsibilities. We recommended that RBS improve the appraisal process for collateral,

require that lenders use audited financial statements to perform financial analyses of

borrowers, enforce lender compliance with critical agency oversight controls, and define

what nonmonetary deficiencies would result in loan acceleration. RBS did not disagree

with the conditions identified in our reports. However, it did not agree with our

recommendations for corrective actions. We are working with the agency to develop an

action plan that will correct the conditions noted in our report.



In FY 2003, we also completed an audit of the process RBS used to liquidate defaulted

B&I loans. We found no material weaknesses in the controls over this process. We did

find that RBS could improve procedures to ensure lenders filed loss claims promptly.

Improvements in these procedures would reduce interest payments the Government is

required to pay on defaulted loans. RBS agreed with our findings and recommendations

and is taking actions to resolve the reported problems.



Our investigations continue to address significant fraud in the B&I program. In one case

a Texas businessman, who acted as a paid consultant for both the buyer and seller of a

Mississippi catfish farm, conspired with an appraiser and others to falsely inflate the

number and value of the live fish inventory that was security for a $9.5 million Rural

                                             24
Development (RD) guaranteed loan. Ninety percent of the loan note was guaranteed

through the B&I Guaranteed Loan Program. The businessman was sentenced in Federal

District Court for the Northern District of Mississippi for fraud. He received 20 months

in prison, 3 years of supervised release, and was further ordered to pay $5.9 million in

restitution. The Mississippi appraiser was sentenced to 6 months of home confinement,

50 hours of community service, and ordered to pay a $10,000 fine for his role in the

conspiracy. Investigation and prosecution continues concerning the buyer and seller of a

Mississippi catfish farm and others, including a former USDA official, who were

involved in the application and receipt of the $9.5 million RD guaranteed loan.



Rural Housing Service and Rural Utilities Service



In FY 2004, we continue to focus our efforts in RD on high priority, high-risk programs.

We are performing followup work on our 1999 nationwide audit of Rural Housing

Service’s (RHS) Multi-Family Housing Program, which provides Rural Rental Housing

(RRH) housing to low- to moderate-income rural residents. We will determine whether

RHS has taken adequate corrective actions to prevent the theft of millions of dollars of

RRH project funds by fraudulent management companies and borrowers. We have also

initiated audit work on RHS’ Rental Assistance Program. Our review in Florida

disclosed $4.4 million of excessive rental assistance over a 2-year period.



We are reviewing RUS’ implementation of the Broadband Program, which is intended to

bring high-speed Internet access to rural communities. In FYs 2001 and 2002, funding

was about $100 and $80 million, respectively. Funding rose to over $1.5 billion in

                                            25
FY 2003 to accelerate the expansion of the Broadband Program to rural areas. We plan

to determine whether project funding was awarded within program criteria and spent for

authorized uses.




                              RESEARCH INTEGRITY



Under the Reports Consolidation Act of 2000, which requires OIG to identify and report

annually the most serious management challenges facing the Department, we reported to

the Secretary the issue of research integrity as one of three emerging management

challenge issues. USDA plays a major role in U.S. research activities, providing around

$1.9 billion, intramurally and extramurally, in fiscal year 2002. In our ongoing review,

we found that the Department has still not implemented any coordinated Departmentwide

policy or procedures on research misconduct even though the President’s Office of

Science and Technology Policy (OSTP) issued a Federal policy in December 2000.

Furthermore, there is no coordinated Departmentwide oversight process to ensure that

OSTP policies and procedures are consistently and effectively applied across the

Department’s agencies. We are currently summarizing the results of our review and

anticipate issuing our report to the Department by summer.




                        FOOD AND CONSUMER SERVICES


FNS administers the Department’s food assistance programs, which include the Food

Stamp Program (FSP); Child Nutrition Programs; and the Special Supplemental Program


                                            26
for Women, Infants, and Children. These three major entitlement programs account for

about $42 billion in estimated expenditures in FY 2004.



OIG has a long history of working collaboratively with FNS to improve program

integrity and to identify improvements in program administration, particularly as FNS

moved forward to implement the delivery of food stamp benefits through electronic

benefits transfer (EBT) systems. OIG has continued to audit EBT systems as issues

emerge or when new State contracts with EBT processors are awarded. Our reviews of

two States during FY 2003 – Texas and Nevada – disclosed no material issues. During

FY 2004, we will monitor statewide implementation as it rolls out in California. In

FY 2002, the last full fiscal year reported, California issued almost $1.7 billion of the

$18 billion in total food stamp benefits nationwide and is the last large state that must

come on-line.



We are also continuing to monitor FNS’ actions to address a serious management

challenge in the National School Lunch and Breakfast Programs. Eligibility

determinations for free and reduced price meals are a challenge that must be addressed to

reduce improper payments and ensure that benefits go to those eligible to receive them.

This is a difficult issue and the Department is considering various options. We will

monitor and provide feedback to FNS on its proposals to minimize this problem.



We also did a significant amount of investigative work in programs administered by FNS.

We issued a total of 182 reports of investigation involving FNS programs in FY 2003,

including 152 reports involving FSP. Our food stamp investigations resulted in

                                             27
285 indictments, 264 convictions, and a total of $22.5 million in monetary results,

including $13.7 million in restitution. Over 95 percent of all food stamp benefits are

being issued through EBT cards, which are essentially debit cards for purchasing food.

The wealth of electronic data available on EBT transactions is of enormous benefit in

detecting and investigating suspicious patterns of activity and in compiling evidence that

is being used to successfully prosecute corrupt retailers.



As an example of our work in food stamp trafficking, OIG special agents investigated a

grocery store in Philadelphia that fraudulently redeemed over $1.3 million in paper food

stamps and food stamp benefits issued via the EBT system. The owner and an associate

have been convicted on charges of trafficking in food stamp benefits, money laundering

and conspiracy. A third individual in the case is a fugitive believed to be in Jordan. The

owner was sentenced to 46 months in prison and ordered to pay nearly $1.3 million in

restitution, as well as a fine of $1,000. The associate was sentenced to probation and

ordered to pay over $92,000 in restitution and a $500 fine.



OIG investigations also resulted in 5 indictments, 16 convictions, and over $570,000 in

monetary results involving the Special Supplemental Food Program for Women, Infants,

and Children, as well as 10 indictments, 9 convictions, and about $35,000 in monetary

results in other FNS programs, including the National School Lunch Program and other

nutrition assistance programs.




                                             28
                          INFORMATION TECHNOLOGY



USDA depends on IT to efficiently and effectively deliver its many diverse programs.

Reliance on IT poses new and significant dangers as hackers access these systems for

their own personal gain. IT security is also critically important in relation to Homeland

Security. Without adequate security, terrorists could hack our computer systems

impacting operations and obtaining sensitive data which could disrupt agricultural

operations. Through our audit efforts over the last 3 years, OIG has identified numerous

security vulnerabilities in IT systems maintained by the Department and its respective

agencies. Much of our IT security work has been performed pursuant to legislative

requirements – first the Government Information Security Reform Act and now the

Federal Information Security Management Act. We have concluded that USDA and its

agencies have not yet complied with OMB and other Federal requirements. USDA

agencies have not (1) prepared security plans for major IT applications, (2) conducted

risk assessments, (3) established disaster recovery plans, and (4) implemented processes

to authorize or certify their systems. USDA agencies also do not have strong physical

and logical access controls and have not effectively used scanning software tools to

identify and mitigate known system vulnerabilities.



We have developed a close working relationship with USDA’s Office of the Chief

Information Officer (OCIO) to foster security awareness. We have made numerous

recommendations to correct the identified weaknesses and, in most cases, USDA and its

respective agencies have agreed. OCIO has several initiatives in process or planned to

address these issues. During the current fiscal year, OCIO issued 16 cyber policy and

                                            29
guidance documents, awarded contracts for agencies to obtain security planning and risk

advisory services, and initiated processes to implement disaster recovery planning and

certification and accreditation programs. However, only after agency management

involvement is assured and agencies have adopted and implemented the IT security

requirements will the necessary controls be in place to reduce the risk to a very low level.




                             FINANCIAL MANAGEMENT



As in FY 2002, USDA and its standalone agencies – FS, CCC, RMA, RD, and the Rural

Telephone Bank – received unqualified opinions on their FY 2003 financial statements.

An unqualified opinion means the financial statements fairly present an entity’s financial

position. Prior to FY 2002, we issued disclaimers of opinion due to weaknesses in

USDA’s and some of the standalone agencies’ financial systems and the Department’s

inability to provide auditable financial statements within the timeframes established

by OMB.



The maintenance of an unqualified opinion, after years of disclaimers, represents a major

accomplishment that reflects the Secretary’s leadership and the efforts of the Chief

Financial Officers of the Department, the agencies, and their respective staffs. Still,

much work is needed. The unqualified opinion did not result from improvements in

underlying financial management systems, but from “Herculean” efforts by agency staffs.

The financial system weaknesses prevented early implementation of accelerated

timeframes for FY 2003 financial reporting as planned by the USDA Chief Financial

                                             30
Officer. Enhancements and improvements to USDA’s financial systems are needed so

that Department managers have access to timely financial information to allow them to

make appropriate management decisions.



Another challenge USDA faces is implementation of the Improper Payments Information

Act of 2002. The act requires agencies to identify programs and activities that have a

high probability of generating improper payments. It also requires agencies to annually

estimate the amount of improper payments and develop plans that would prevent and

reduce them. Successful implementation and compliance with the act will require a

strong management commitment, as well as the necessary resources, quality control

processes, and information systems to measure improper payments. Successful

implementation will help prevent payments to persons ineligible for USDA programs or

services. OIG will continue to review USDA’s compliance with the act. Our current

audit efforts will determine if USDA agencies have adequate internal controls and

financial systems to estimate their improper payments.




                             FY 2005 BUDGET REQUEST



We are very proud of the accomplishments of OIG and pleased to report that in FY 2003

we continued to more than pay our own way. In the investigations arena, OIG issued

461 investigative reports, obtained 491 indictments and 435 convictions, and made

877 arrests. These actions resulted in $68.5 million in fines, restitutions, other recoveries,

and penalties during the year.

                                             31
In the audit arena, we issued 71 audit reports and obtained management’s agreement on

451 recommendations. Our audits resulted in questioned costs of $25.1 million. Of this,

management agreed to recover $20.1 million. In addition, management agreed to put

another $49 million to better use. Equally as important, implementation of our

recommendations by USDA managers will result in more efficient and effective

operations of USDA programs.



During the past year, we have continued to review and evaluate OIG’s activities and

made changes as needed to provide the most effective support to the Department’s

programs and operations. One of our most critical efforts has been in our IT arena. With

the essential funding provided by this Committee in FY 2003, we were able to move

forward to start rebuilding our crucial IT infrastructure. Specifically, the agency was able

to replace all of its IT workstations with new state-of-the-art equipment for each OIG

employee. In addition, a new network operating system greatly improved the efficiency

and security of the agency’s IT system. Additional printers and related equipment and

software improved efficiencies. All of this equipment has been received and installed

nationwide for our staff’s use.



We are already beginning to see results through improvement in our audit processes and

our investigative forensic efforts. The new equipment and specialized software has

helped OIG complete its audits faster and target its analyses to the highest USDA risk

areas. For instance, OIG recently used an automated audit software package to extract,

sort, summarize, classify, and analyze 800,000 individual USDA employee transactions

from the Government-issued travel card over a 6-month period. From this analysis, OIG

                                            32
concluded there was extensive misuse of the travel card and found that over $5.8 million,

or 8 percent, of the $78.5 million in charges incurred over the audit period were for other

than travel-related purposes. Acting on our audit recommendations, the Department took

action to significantly strengthen the travel card program. The audit cost an estimated

$75,000 to perform. In an exclusively manual environment, the audit might have cost

10 times that amount without any assurance of comparable results. This state-of-the-art

equipment and software allow OIG auditors to review transactions in a matter of days

versus weeks or months, and with fewer staff. The reduced staff time allows OIG to

review additional high-risk or vulnerable programs and operations.



On the investigation side, the purchase of new software and hardware for our Computer

Forensics Unit (CFU) has allowed this unit to process cases utilizing the most up-to-date

forensic hardware and software tools. For instance, in an investigation involving a

company that is allegedly assisting producers in establishing sham farms for the purpose

of obtaining USDA program benefits, our investigation determined that numerous

producers may have received millions of dollars in USDA benefits to which they were

not entitled. OIG recently served a search warrant on this company with the assistance of

the CFU, which determined that 17 file servers housed electronic information pertaining

to the investigation. The CFU utilized its knowledge and training to image the servers in

such a manner that will allow the servers to be recreated in the forensic lab, allowing a

more thorough investigation. These forensic tools are specifically designed to process

electronic data in a manner that maintains the integrity of the data so that they can be

used in a court of law. These forensic tools must be regularly upgraded and replaced in



                                             33
order to keep pace with the ever-changing IT hardware and software standards and

investigative needs.



Again, I want to especially thank the Committee for its support in this area.



The President’s FY 2005 request of $78.4 million for OIG provides for an increase of

$1.6 million for mandatory pay costs only. No other increases are being requested. I

recognize there is fierce competition for the Government’s limited resources. However, I

believe adequate funding for our OIG activities makes good sense. OIG audits and

investigations save money for the taxpayers, help ensure the safety and wholesomeness

of the Nation’s food supply, promote USDA Homeland Security efforts, and ensure the

integrity of USDA programs. As such, I support the President’s budget request for OIG.



This concludes my statement, Mr. Chairman. I appreciate the opportunity to appear

before you today and would be pleased to respond to any questions you and the

Committee may have at this time.

                                         *****




                                            34
